   April 23, 2004




Financial Management
Reliability of the Automated Cost
Estimating Integrated Tools
Software Model
(D-2004-074)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies
  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax
  (703) 604-8932. Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

ACEIT               Automated Cost Estimating Integrated Tools
ESC                 Electronic Systems Center
VV&A                Verification, Validation, and Accreditation
          Office of the Inspector General of the Department of Defense
Report No. D-2004-074                                                      April 23, 2004
   (Project No. D2003AE-0181)

                 Reliability of the Automated Cost Estimating
                       Integrated Tools Software Model

                                Executive Summary

Who Should Read This Report and Why? DoD acquisition program officials and their
support contractors that use the Automated Cost Estimating Integrated Tools software
model in preparing life-cycle cost estimates for DoD acquisition programs will be
interested in this report because it discusses the model’s reliability.

Background. The Army and the Air Force funded the development and maintenance of
the Automated Cost Estimating Integrated Tools software model (the model) to provide
their cost analysts at acquisition program offices with a comprehensive and integrated
software program to prepare program life-cycle cost estimates during the acquisition
process. The Air Force Electronics Systems Center began developing the model in 1986
through a contract with Tecolote Research, Inc., Goleta, California. Model development
included integrating individual module concepts such as database management, cost
estimating, life-cycle cost modeling, cost and price analysis, economic analysis, cost
benefit analysis, cost engineering, financial management reporting, statistical analysis,
and risk analysis, into a single, automated cost-estimating system. In 1992, the Director,
Army Cost and Economics Analysis Center (now the Office of the Deputy Assistant
Secretary of the Army for Cost and Economics) recognized that the model could be used
in Army acquisition program offices. Since the programs inception, the Air Force has
awarded five contracts and the Army has awarded two contracts totaling $18.8 million
for the models development, enhancement, support, and training.

Results. The Army and Air Force authorized acquisition program managers to use the
model to prepare life-cycle cost estimates for their acquisition programs before verifying,
validating, and accrediting the model as required. Although we did not identify any
significant reliability problems with the model, acquisition program managers who use
the model cannot provide milestone decision authorities with full assurance that life-
cycle cost estimates developed with the model can be fully relied on for making
important program milestone decisions and for obtaining accurate information on the cost
of environmental liability during the weapons acquisition process. After the required
verification, validation and accreditation is performed and documented for the model,
Army and Air Force acquisition program managers can provide milestone decision
authorities with more reliable life-cycle cost estimates at program milestone decision
points and information on the cost of environmental liability for acquisition weapons
system programs for inclusion in DoD-wide financial statements. See the Finding section
of the report for the detailed recommendations.
Management Comments. The Deputy Assistant Secretary of the Army (Cost and
Economics) nonconcurred with the audit finding but concurred with the recommendation
to verify, validate, and accredit the next major release of the Automated Cost Estimating
Integrated Tools software. The Assistant Secretary of the Air Force (Financial
Management and Comptroller) also nonconcurred with the audit finding but concurred
with the recommendation and agreed to work with the Deputy Assistant Secretary of the
Army (Cost and Economics) to determine the best approach to fulfill the verification,
validation, and accreditation requirement for the Automated Cost Estimating Integrated
Tools software. See the Finding section of the report for a discussion of management
comments and the Management Comments section of the report for the complete text of
the comments.

Management comments were responsive to the report recommendation. Accordingly, no
further comments are required in response to the final report.




                                            ii
Table of Contents

Executive Summary                                                           i

Background                                                                 1

Objectives                                                                 2

Findings
     Verification, Validation, and Accreditation of the Automated Cost
       Estimating Integrated Tools Software Model                           3

Appendixes
     A. Scope and Methodology                                              8
         Prior Coverage                                                    9
     B. Description of the Automated Cost Estimating Integrated Tools
          Software Model                                                   10
     C. Technical Assessment of the Automated Cost Estimating Integrated
          Tools Software Model                                             12
     D. Report Distribution                                                14

Management Comments
     Department of the Army                                                17
     Department of the Air Force                                           20
Background
    The Army and the Air Force funded the development and maintenance of the
    Automated Cost Estimating Integrated Tools (ACEIT) software model to provide
    their cost analysts at acquisition program offices with a comprehensive and
    integrated software program to prepare program life-cycle cost estimates. The
    ACEIT software model development included integrating individual model
    concepts,such as database management, cost estimating, life-cycle cost modeling,
    cost and price analysis, economic analysis, cost benefit analysis, cost engineering,
    financial management reporting, statistical analysis, and risk analysis, into a
    single, automated cost estimating system. See Appendix B for a complete
    description of the component modules for the ACEIT software model.

    ACEIT Software Model History. In 1986, the Air Force Electronics Systems
    Center (ESC) began developing the ACEIT software model, through a
    $0.8 million contract with Tecolote Research, Inc., Goleta, California (Tecolote).
    As the initial developing agency, ESC awarded subsequent contracts to establish
    12- to 18-month cycles for updating the software and to perform maintenance and
    configuration management. Since the completion of the first contract, ESC has
    awarded four additional contracts to Tecolote for ACEIT development,
    enhancement, support, and training totaling $10.4 million: in January 1988 for
    $2.6 million, September 1993 for $4.2 million, April 1999 for $3.0 million, and
    April 2002 for $0.6 million. As of December 2003, the Air Force has spent
    $11.2 million for the acquisition and maintenance of the ACEIT software model.

    In 1992, the Director, Army Cost and Economics Analysis Center (now the Office
    of the Deputy Assistant Secretary of the Army for Cost and Economics)
    recognized that the ACEIT software model could be used in Army acquisition
    program offices. Accordingly, in 1996, the Office of the Army Cost and
    Economics Analysis Center encouraged Army program managers to use the
    ACEIT software model to estimate life-cycle costs for major Defense acquisition
    programs. Subsequently, the Army Director awarded delivery orders on
    two contracts between September 1997 and September 2002 for $6.7 million and
    in February 2003 for $0.9 million to Tecolote for the development and
    enhancement of Army-unique cost estimating requirements in the ACEIT
    software model and for user support and training.

    Use of ACEIT Software Model. Tecolote has a registered copyright for the
    ACEIT software model. By contract provisions, U.S. Federal Government
    agencies have unlimited rights to use the ACEIT software model for preparing
    program life-cycle cost estimates. To use the software model, each Government
    agency pays an annual software maintenance fee. The software maintenance fee
    was established to support the ACEIT software model and can be waived by the
    Army or Air Force. All other non-government organizations must pay an annual
    license to Tecolote to use the software model. Tecolote uses these annual user
    fees to make further enhancements to the ACEIT software model.




                                         1
Objectives
     The overall audit objective was to assess the reliability of ACEIT software model
     that is used to prepare life-cycle cost estimates for DoD acquisition programs.
     Specifically, we determined whether data generated by the ACEIT software
     model was sufficiently reliable and accurate. See Appendix A for a discussion of
     the audit scope and methodology.


Reliability of the ACEIT
     In September 2003, the audit team and a computer engineer from the Technical
     Assessment Division, Office of the Deputy Inspector General for Auditing of the
     Department of Defense observed the beta testing (final acceptance testing)
     procedure together with Army and the Air Force officials, for Version 6.0 of the
     ACEIT software model. The test results showed that the general and application
     controls were generally adequate and testing did not identify any significant
     reliability problems with the software model. However, the computer engineer
     could not verify that all of the Army and Air Force software requirements had
     been met, and could not review the source code to a system requirements
     document because Tecolote had not prepared a system requirements document.
     See Appendix C for a complete description of the computer engineer’s
     assessment. The finding discussion and the implementation of the
     recommendation that follows will enable acquisition program offices to provide
     milestone decision authorities more reliable life-cycle cost estimates at program
     milestone decision points.




                                         2
            Verification, Validation and
            Accreditation of the Automated Cost
            Estimating Integrated Tools Software
            Model
            The Army and Air Force authorized acquisition program managers to use
            the ACEIT software model to prepare life-cycle cost estimates for their
            acquisition programs before verifying, validating, and accrediting the
            ACEIT software model as required. This condition occurred because the
            Deputy Assistant Secretary of the Army (Cost and Economics) and the
            Commander, Air Force ESC did not comply with DoD policy for
            verifying, validating, and accrediting software models. Although we did
            not identify any significant reliability problems with the ACEIT software
            model, acquisition program managers who use the ACEIT software model
            cannot provide milestone decision authorities with full assurance that life-
            cycle cost estimates developed can be fully relied on for making important
            program milestone decisions and for providing accurate information on
            the cost of environmental liability for acquisition weapons system
            programs in DoD-wide financial statements.


Preparation of Life-Cycle Cost Estimates
     DoD Guidance. DoD Directive 5000.1, “The Defense Acquisition System,” and
     the DoD Interim Defense Acquisition Guidebook provide guidance for preparing
     and reporting life-cycle cost estimates.

         DoD Directive 5000.1. DoD Directive 5000.1 states that the project manager
     is accountable for accomplishing program objectives for total life-cycle system
     management, including sustainment, and shall consider program life-cycle costs
     when making program decisions. Further, the DoD Directive 5000.1 states that
     planning for operation and support and estimating total ownership costs will
     begin as early as possible in the acquisition process.

         DoD Interim Defense Acquisition Guidebook. The DoD Interim Defense
     Acquisition Guidebook states that program managers should consider the estimate
     of total operational costs of each acquisition program. It also states that the life-
     cycle cost estimate should present a realistic appraisal of the level of cost most
     likely to be realized, be consistent with the cost estimates in the analysis of
     alternatives, and explain major changes that may have occurred to the program.


Criteria for Verification, Validation, and Accreditation
     DoD Guidance. DoD Directive 5000.59, “DoD Modeling and Simulation
     Management,” January 4, 1994, and DoD Instruction 5000.61, “DoD Modeling
     and Simulation Verification, Validation, and Accreditation (VV&A),”
                                           3
    May 13, 2003, establish DoD policy and responsibilities for verifying, validating,
    and accrediting DoD models and simulations and their associated data.
    Verification determines whether a model accurately represents the developer’s
    conceptual description and specifications. Validation determines the degree to
    which a model accurately represents the intended uses. Accreditation is the
    official certification that a model or simulation is acceptable to use for a specific
    purpose.

       DoD Directive 5000.59. DoD Directive 5000.59 requires that modeling and
    simulation applications be assigned to a specific DoD Component for
    management responsibility. Directive 5000.59 further requires that
    DoD Components:

       •   establish VV&A policies and procedures for the modeling and simulation
           applications that they manage;
       •   review, coordinate, and approve DoD modeling and simulation plans,
           programs, policies, and procedures; and

       •   ensure that modeling and simulation applications, standards, and databases
           are both efficient and effective.

        DoD Instruction 5000.61. DoD Instruction 5000.61 requires that the
    verification and validation be incorporated into the development and life-cycle
    management processes of all models and simulations and be performed for all
    DoD software models and simulations in use. Instruction 5000.61 also requires
    models and simulations that support major DoD decision making organizations
    and processes be accredited and documented.

Authorization for Program Managers to Use ACEIT
    The Army and Air Force authorized acquisition program managers to use the
    ACEIT software model to prepare life-cycle cost estimates for their acquisition
    programs before verifying, validating, and accrediting the ACEIT software model
    as required.

    Air Force Usage. In 1989, the ESC first used the ACEIT software model to
    complete a life-cycle cost estimate for the Cheyenne Mountain Upgrade program.
    Subsequently, the Air Force Cost Analysis Agency authorized Air Force
    acquisition program managers to use the ACEIT software model to prepare
    life-cycle cost estimates for all Air Force acquisition programs.



    Army Usage. In September 1996, the Assistant Secretary of the Army (Research,
    Development, and Acquisition) (currently the Assistant Secretary of the Army
    [Acquisition, Logistics, and Technology]) and the Assistant Secretary of the
    Army (Financial Management and Comptroller) endorsed the use of the ACEIT
    software model by Army acquisition program managers to estimate life-cycle
    costs for Army major Defense acquisition programs.

                                          4
     VV&A. Although the Deputy Assistant Secretary of the Army (Cost and
     Economics) and the Commander, ESC had not performed and documented a
     VV&A for the ACEIT software model, in July 1999, the Army Modeling and
     Simulation Office approved the use of the ACEIT software model as an Army
     standard for preparing life-cycle cost estimates for Army major Defense
     acquisition programs. A VV&A for the ACEIT software model would have
     ensured that the model met all of the functional requirements and would have
     independently determined whether the software code contained any hidden errors.


Compliance with DoD Requirements for VV&A
     The Deputy Assistant Secretary of the Army (Cost and Economics), and the
     Commander, ESC believed that their participation in Tecolote’s alpha and beta
     testing processes before releasing each new version of ACEIT software models
     met DoD requirements for documenting VV&A of the software model. However,
     Tecolote’s alpha and beta test processes were not adequate to satisfy the VV&A
     requirements because Tecolote did not perform a comprehensive software
     requirements trace. Tecolote performed the alpha and beta testing to provide the
     Army and Air Force representatives with an opportunity to identify errors with
     revisions to the model before accepting the new version. To perform VV&A for
     the ACEIT software model, the Army Deputy Assistant Secretary and the
     Air Force Commander need to develop an ACEIT software requirements
     document that could be used to verify that software meets its specifications and to
     validate how the model should function. With the software requirements
     document, the Army Deputy Assistant Secretary and the ESC Commander could
     use a future release of the ACEIT software model to perform VV&A.
     Accordingly, to meet the VV&A requirements in DoD Instruction 5000.61, Army
     and Air Force program managers need to prepare a software requirements
     document and perform and document VV&A for the complete ACEIT software
     model.


Reliance on Cost Estimates
     Although we did not identify any significant reliability problems with the ACEIT
     software model, acquisition program managers who use the ACEIT software
     model cannot provide milestone decision authorities with full assurance that
     life-cycle cost estimates developed can be fully relied on for making important
     program milestone decisions. Furthermore, VV&A for the ACEIT software
     model is needed so that Army and Air Force acquisition program managers can

     provide accurate information on the cost of environmental liabilities for Army and
     Air Force weapon systems acquisition programs in the DoD-wide financial
     statements.




                                          5
Management Comments on the Finding and Audit Response
    The Deputy Assistant Secretary of the Army (Cost and Economics) and the
    Assistant Secretary of the Air Force (Financial Management and Comptroller)
    provided comments on the draft report finding. The complete text of those
    comments is in the Management Comments section of the report.

    Army Comments. The Deputy Assistant Secretary of the Army (Cost and
    Economics) nonconcurred with the finding stating that the Automated Cost
    Estimating Integrated Tools software was not a traditional model that must
    duplicate a real-world system, entity, or process. He further stated that the
    calculations were all based on well-known mathematical formulas and were not
    subject to the uncertainty of external factors. The Deputy Assistant Secretary also
    stated that DoD Instruction 5000.61 permits tailoring of the verification,
    validation, and accreditation process and that the Army’s tailored approach to
    testing of deliverables ensured that the software model was reliable.

    Audit Response. As stated in the finding, we did not identify any significant
    reliability problems with the Automated Cost Estimating Integrated Tools
    software model. However, to meet the intent of DoD Instruction 5000.61, the
    Army should verify that software requirements were met by tracing the source
    code to a software requirements document for the Automated Cost Estimating
    Integrated Tools software model. However, the Army did not perform this
    verification and is unable to do so because the software requirements document
    had not been prepared. Performance of the required verification, validation, and
    accreditation will provide acquisition decision authorities with full assurance that
    life-cycle cost estimates developed can be fully relied on for making important
    program milestone decisions and cost information for inclusion in DoD financial
    statements.

    Air Force Comments. The Assistant Secretary of the Air Force (Financial
    Management and Comptroller) also nonconcurred with the audit finding stating
    that the Automated Cost Estimating Integrated Tools is not a software model but
    instead is a tool to build cost estimating models that represent the cost of
    acquisition programs. The Assistant Secretary also nonconcurred with the audit
    finding conclusion that the program manager could not provide full assurance that
    the Automated Cost Estimating Integrated Tools-developed estimates were fully
    reliable. In this regard, the Assistant Secretary further stated that he believed the
    current alpha and beta testing process for new releases of the Automated Cost
    Estimating Integrated Tools software model was more than adequate to ensure
    that the results of the software model were reliable and accurate.



    Audit Response. Representatives from the Defense and the Army Modeling and
    Simulation Offices stated that the Automated Cost Estimating Integrated Tools
    met the definition of a software model. This software model requires verification,
    validation, and accreditation, as discussed in our response to the Army’s
    comments.


                                          6
Recommendation and Management Comments
    We recommend that the Deputy Assistant Secretary of the Army for Cost
    and Economics and the Commander, Air Force Electronics System Center
    for the Automated Cost Estimating Integrated Tools software model jointly
    perform and document the verification, validation, and accreditation of the
    Automated Cost Estimating Integrated Tools software model as required in
    DoD Instruction 5000.61, “DoD Modeling and Simulation Verification,
    Validation, and Accreditation,” May 13, 2003.

    Army Comments. The Deputy Assistant Secretary of the Army (Cost and
    Economics) concurred with the recommendation and agreed to verify, validate,
    and accredit the next major release of the Automated Cost Estimating Integrated
    Tools software.

    Air Force Comments. The Assistant Secretary of the Air Force (Financial
    Management and Comptroller) concurred with the recommendation and agreed to
    work with the Deputy Assistant Secretary of the Army (Cost and Economics) to
    determine the best approach to fulfill the verification, validation, and
    accreditation requirement for the Automated Cost Estimating Integrated Tools
    software.




                                        7
Appendix A. Scope and Methodology
   To review the ACEIT software model, we evaluated the acquisition processes
   used by the Army and the Air Force to develop and maintain the life-cycle cost
   estimating model for acquisition programs. Specifically, we reviewed the past
   and current efforts by the Office of the Deputy Assistant Secretary of the Army
   for Cost and Economics and the Commander, ESC to develop and maintain the
   ACEIT software model. We performed this audit from August 2003 through
   February 2004 in accordance with generally accepted government auditing
   standards. Our review did not include a review of the management control
   program because it was not a stated audit objective.

   We reviewed documentation dated from March 1989 to September 2003 that we
   obtained from the Office of the Deputy Assistant Secretary of the Army for Cost
   and Economics, the ESC,and Tecolote Research, Inc., Goleta, California.

   To accomplish the audit objectives:

       •   We visited the ESC, Hanscom AFB, Massachusetts, to discuss the initial
           acquisition of the ACEIT software model. During the visit, we
           interviewed the prior program management staff involved with ACEIT
           software model development. We also reviewed information relating to
           five Air Force contracts awarded to Tecolote. In addition, we interviewed
           ESC cost analyst representatives and their support contractors about the
           use of the ACEIT software model for Air Force acquisition programs.

       •   We met with the Office of the Deputy Assistant Secretary of the Army for
           Cost and Economics to determine Army’s involvement with the ACEIT
           software model and the current status of Army contracts with Tecolote.

       •   We visited the Defense Contract Command-Washington, District of
           Columbia to analyze the two Army contracts, DASW01-97-D-0059 and
           DASW01-03-A-0011, awarded to Tecolote for ACEIT software model,
           enhancements, support, and training.

       •   We visited Tecolote to observe the beta testing process for Version 6.0 of
           the ACEIT software model, reviewed contracting documents, and
           interviewed subject-matter experts about the ACEIT software model. Our
           evaluation of the ACEIT software model during the visit to Tecolote was
           limited because the Office of the Commander, ESC, Hanscom AFB,
           Massachusetts had not prepared a software requirements document.

   Further, we contacted the Defense Modeling and Simulation Office, the Army
   Modeling and Simulation Office, the Air Force Agency for Modeling and
   Simulation, and the Air Force Modeling and Simulation Policy Division to
   determine whether those offices had verified, validated, and accredited the
   ACEIT software model to satisfy the requirements in DoD Directive 5000.59 and
   DoD Instruction 5000.61.


                                         8
    Use of Computer-Processed Data. We did not use computer-processed data to
    perform this audit.

    Use of Technical Assistance. A computer engineer in the Technical Assessment
    Division, Office of the Assistant Inspector General for Auditing of the
    Department of Defense reviewed the accuracy and reliability of the ACEIT
    software model. Specifically, the computer engineer observed the ACEIT
    software model beta testing for Version 6.0 and performed benchmark tests;
    assessed the reliability of the software functions; reviewed identified software
    defects, corrective actions, and their effects on life-cycle cost estimates for
    weapon systems acquisition programs; reviewed the quality of the contractor’s
    software development and testing, configuration management, third-party
    commercial off-the-shelf products, and protection of data from inappropriate
    alteration.
    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in DoD. This report provides coverage of
    the effectively managing information technology investments and improved
    financial performance high-risk areas.


Prior Coverage
    No prior coverage has been conducted on the ACEIT software model during the
    last 5 years.




                                        9
Appendix B. Description of the Automated Cost
            Estimating Integrated Tools
            Software Model
   The ACEIT software model provides an automated framework to build concise,
   structured, and robust life-cycle cost estimates for weapon system acquisition
   programs. The ACEIT software model consists of the following components:
   Automated Cost Estimator; Cost and Statistical Analysis Tool; Automated Cost
   Database; Program Office Support Tool; Automated Cost Estimator Information
   Manager; ACEIT Inflation Editor; and Knowledge Web Services

   Automated Cost Estimator. The Automated Cost Estimator component is the
   estimating portion and heart of the ACEIT platform. The Automated Cost
   Estimator is a model-building tool that is part spreadsheet and part database,
   which allows for an increase in analyst productivity through built-in indenture
   summing, inflation, learning, time phasing, documentation, sensitivity and
   “what-if” error trapping, risk analysis, and other analysis capabilities.

   Cost and Statistical Analysis Tool. The Cost and Statistical Analysis Tool is the
   statistics portion of the ACEIT platform. The Excel-based Cost and Statistical
   Analysis Tool allows analysts to conduct correlations, univariate, multivariate,
   linear, log-linear, non-linear, beta curve, statistical sampling, and learning curve
   analysis.

   Automated Cost Database. The Automated Cost Database component of the
   ACEIT platform is a database-building tool that allows users to tailor a database.
   When an analyst populates the database, the Automated Cost Database allows the
   user to search and retrieve cost, schedule, and programmatic data through a user-
   friendly tool called the Report Wizard.

   Program Office Support Tool. The Program Office Support Tool component
   provides extensive capability in the areas of “what-if” case management, estimate
   reporting, drill-down analysis, and automated presentation and report generation.
   Through the Program Office Support Tool, a cost analyst can access an
   Automated Cost Estimator session to develop alternative excursions, create charts
   or tabular reports, and export charts and reports.

   Automated Cost Estimator Information Manager. The Automated Cost
   Estimator Information Manager component is a powerful tool enabling any user
   to build and maintain the Automated Cost Estimator’s knowledge bases that can
   contain estimating analogs, factors, equations, rules, or source references and will
   appear in a cost estimating relationship library.

   ACEIT Inflation Editor. The ACEIT Inflation Editor component allows a cost
   analyst to create unique inflation indices for a program, project, or organization
   that can be accessed by an ACEIT software tool.



                                        10
Knowledge Web Services. The Knowledge Web Services component is a
document management tool that allows a cost analyst to set permissions for users
to read and write documents, Automated Cost Estimator sessions, and cost
estimating relationship libraries to Internet sites.




                                   11
Appendix C. Technical Assessment of the
            Automated Cost Estimating
            Integrated Tools Software Model
   To determine the reliability of the ACEIT software model, the audit team
   consulted with a computer engineer from the Technical Assessment Division,
   Office of the Deputy Inspector General for Auditing of the Department of
   Defense. The computer engineer observed beta tests for Version 6.0; performed
   benchmark tests; reviewed the software development and testing documents; and,
   corresponded with Tecolote’s subject-matter experts about the ACEIT software
   model. In addition, the computer engineer reviewed the contractor’s reported
   software deficiencies and configuration management process to determine
   whether any conditions existed that would affect the software’s reliability. The
   computer engineer did not identify any significant problems.

   Beta Tests. The engineer observed the beta testing before the release of
   Version 6.0 of the ACEIT software model. He also tested new features and
   performed regression testing by editing an existing cost estimate, applying
   inflation features, and producing graphing results. The computer engineer
   identified some errors but determined that none would significantly affect the
   reliability of the results of the ACEIT software model.

   Benchmark Tests. To further test the software, the computer engineer obtained a
   copy of the ACEIT software from Tecolote and installed it on his office personal
   computer. He created cost methodologies to test equations, applied learning
   curves and phasing methods, and performed “what-if” scenarios. The computer
   engineer did not find any problems that would indicate that the software
   processing features of the ACEIT software model would inadvertently alter or
   modify data without the user’s knowledge.

   Software Development and Testing Documents. The computer engineer
   reviewed Tecolote’s software development standards and ACEIT software model
   alpha testing documents. He was unable to review a software requirements
   document because a Tecolote representative stated that such a document did not
   exist, and that the requirements for the ACEIT software model were included
   within the contract statements of work. The computer engineer stated that
   Tecolote’s internal standards for the ACEIT software model development,
   programming, and testing were similar to best practices used by industry.

   Software Change Requests. To assess the types of changes that Army and
   Air Force users requested for the ACEIT software model, the computer engineer
   reviewed change requests for Versions 5.1b and 6.0 that were stored in the
   Tecolote defect tracking system. The computer engineer identified that Army and
   Air Force users had submitted 602 change requests and that the release of
   Versions 5.1b and 6.0 addressed 400 of the 602 change requests as either fixed, in
   progress, or closed. The computer engineer also discovered that the Army and the
   Air Force had another 71 user change requests on their unfunded requirements


                                       12
list. The computer engineer determined that a few of the 71 open change requests
would affect the reliability of the results of the ACEIT software model. Tecolote
had assigned action on those open change requests.

Configuration Management Process. The computer engineer reviewed the
configuration management process for ACEIT software model change requests.
He determined that the configuration management process was adequate.




                                   13
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
  Deputy Assistant Secretary of the Army (Cost and Economics)
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force
Commander, Electronic Systems Center

Non-Defense Federal Organization
Office of Management and Budget




                                          14
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        15
Department of the Army




                     17
18
19
Department of the Air Force Comments




                     20
21
Team Members
The Acquisition Directorate, Office of the Deputy Inspector General for Auditing
of the Department of Defense prepared this report. Personnel of the Office of the
Inspector General of the Department of Defense who contributed to the report are
listed below.

John E. Meling
Rodney D. Britt
John C. Petrucci
Julie C. Kienitz
Chrispian M. Brake
Todd L. Kowalski
Peter C. Johnson
Ann A. Ferrante
Jacqueline N. Pugh
